January 12, 2011

DEBORAH J. JUDY
DIRECTOR, INFORMATION TECHNOLOGY OPERATIONS

GREGORY D. LARRABEE
MANAGER, RALEIGH INFORMATION TECHNOLOGY SERVICE CENTER

SUBJECT: Audit Report – Fiscal Year 2010 Selected Information Technology General
         Controls (Report Number IT-AR-11-002)

This report presents the results of our audit of Information Technology (IT) general
controls (Project Number 10RD001IT000). We conducted this audit in support of the
independent public accounting (IPA) firm’s overall audit opinions on the U.S. Postal
Service’s financial statements and internal controls over financial reporting.1 Our
objective was to evaluate and test infrastructure level internal controls over the
information systems at the Postal Service Information Technology and Accounting
Service Centers (IT/ASCs) and the             Information Technology Service Center
(ITSC). This report summarizes the results of the nine IT process areas2 we tested. This
audit addresses financial risk. See Appendix A for additional information about this
audit.

The Postal Reorganization Act of 1970, as amended, requires annual audits of the
Postal Service’s financial statements. Also, the U.S. Congress enacted Sarbanes-Oxley
(SOX) legislation in calendar year 2002 to strengthen public confidence in the accuracy
and reliability of financial reporting. Section 404 of SOX requires management to state
its responsibility for establishing and maintaining an adequate internal control structure
and make an assertion on the effectiveness of the internal control structure over
financial reporting. The Postal Accountability and Enhancement Act of 2006 requires the
Postal Service to comply with Section 404 of SOX beginning in fiscal year (FY) 2010.
The Board of Governors contracted with the IPA to express an opinion on the Postal
Service’s financial statements. Beginning in FY 2010, that responsibility was expanded
to include an opinion on the Postal Service’s internal control over financial reporting.




1
  The IPA maintains overall responsibility for testing and review of all IT controls. The U.S. Postal Service Office of
Inspector General (OIG) coordinated audit work with the IPA to ensure adequate coverage.
2
  See Appendix A for additional information about the IT process areas reviewed.
Fiscal Year 2010 Selected Information Technology General Controls                                        IT-AR-11-002



Conclusion

Infrastructure level internal controls in the areas we tested were properly designed and
operating effectively. However, by strengthening controls over database and server
security settings, management can reduce the risk of a compromise that could
negatively affect the confidentiality, integrity, and availability of information resources
and data.

Oracle Database Configuration Settings

Management did not properly configure security settings on Oracle databases.
Specifically,


                                                                   This occurred,
because the database administrator did not thoroughly review configuration settings on
these databases after installing upgrades or a new operating system.

Properly configured accounts and profiles prevent unauthorized users from gaining
access to sensitive information resources and making unauthorized changes to data or
programs. The Database Support Services group corrected these issues during the
course of our review; therefore, we are not making any recommendations regarding
corrective actions. See Appendix B for a detailed analysis of this topic.

The data in                          we reviewed are potentially at risk, which affects
information technology. We quantified the costs associated with this risk, using a single
database supporting the                                   at approximately
       See Appendix C for our calculation of data at risk

Windows Server Management

Security settings on Windows servers were not in compliance with Postal Service
policy.6 While performing our review of Windows servers, we identified non-
compliant:

    
                                                                 .
    

3




  Computer software, networks, and data that are vulnerable or at risk of loss because of fraud, inappropriate, or
unauthorized disclosure of sensitive data, or disruption of critical Postal Service operations and services.
6
  Handbook AS-805, Information Security, Section 9-6.1.12,                                dated February 2010.




                                                           2
Fiscal Year 2010 Selected Information Technology General Controls                                   IT-AR-11-002



The                                                 occurred, because administrators
supporting servers were not always notified when Information Technology Engineering
                                                            7
and Architecture updated the                                  Further, although
management performs periodic reviews of Windows software and settings, they did not
correct the discrepancies identified during their reviews. As a result,


The                                            occurred, because configurations o
            were not centrally managed, for example, by using Active Directory.8

Properly configuring accounts reduces the risk of unauthorized users gaining access to
sensitive information resources and making unauthorized changes to data or programs.
Management corrected these discrepancies on the servers we reviewed; however,
these conditions could exist on other Windows servers we did not review.9 See
Appendix B for our detailed analysis of this topic.

We recommend the director, Information Technology Operations, direct the manager,
       Information Technology Service Center, to:

1. Develop a procedure to notify administrators supporting Windows servers when
                       are available.

2. Correct discrepancies identified by the periodic reviews of all Windows servers, as
    appropriate.

3. Develop a methodology to centrally manage all

Management’s Comments

Management agreed with our recommendations. However, management stated they
could not validate the accuracy of the information in Appendix C (Other Impacts) and
believe the estimated potential cost to the Postal Service reported for data at risk
reflects a worst case scenario.

In response to recommendation 1, management stated that all GPO implementations
are submitted and approved through the change request process. They will implement
an additional notification process with groups responsible for administration of GPOs on
the Windows servers. Target completion date is March 31, 2011.



7
8
  A directory service that provides the means to manage the identities and relationships that make up network
environments.
9
  Where we limited our review to 22 Windows servers, there are approximately 300 Windows servers that support the
in-scope SOX applications that could also be vulnerable to these conditions.




                                                        3
Fiscal Year 2010 Selected Information Technology General Controls             IT-AR-11-002



In response to recommendation 2, management will conduct periodic reviews of
Windows baseline configurations in February and August of each year. Within 30 days
of the review completion, management will produce an action plan that identifies each
discrepancy and the group assigned to correct the problem. The results will be posted in
the SOX artifact library. In addition, management will review the baseline standard build
annually. Target completion date is September 30, 2011.

To address recommendation 3, management updated Handbook AS-805 to prohibit
local accounts listing exceptions of built-in accounts and accounts required by
commercial-off-the-shelf applications approved in eAccess. The identification and
approval of local accounts will be part of the semiannual review process. Target
completion date is September 30, 2011. See Appendix E for management’s comments,
in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and the actions taken should correct the
issues identified in the report. Additionally, we do not believe our other impacts
represent a worst case scenario; rather, they represent a historical industry average of
the cost associated with the disclosure of personally identifiable information.

The OIG considers all of the recommendations significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Frances E. Cain, director,
Information Technology, or me at 703-248-2100.


    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments




                                                   4
Fiscal Year 2010 Selected Information Technology General Controls   IT-AR-11-002



cc: Ellis A. Burgoyne
    Joseph Corbett
    Vincent H. Devito
    Harold E. Stark
    Charles L. McGann, Jr.
    Corporate Audit and Response Management




                                                   5
Fiscal Year 2010 Selected Information Technology General Controls                                     IT-AR-11-002



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service SOX and Process Improvement office established the IT SOX
Compliance Management Office (CMO) to manage the annual documentation, testing,
remediation, reporting, and certification requirements to meet and maintain IT SOX
compliance. The IT SOX CMO is responsible for developing and implementing internal
IT SOX master controls,10 both general computer and application-specific controls.

The                                 and               IT/ASCs provide computer
processing and accounting services for the Postal Service. The                  ITSC
provides infrastructure services for approximately         Postal Service locations. Each
site includes multiple service organizations that deploy and support systems and
applications; provide accounting and finance activities; and perform application
development, enhancement, and maintenance of systems that enable the Postal
Service to achieve its business objectives. As of June 2010, these organizations
support     financial11 applications and   IT-related applications or infrastructure
components.12

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to evaluate and test infrastructure level internal controls over the
information systems at the Postal Service IT/ASCs and other related IT organizations.
Specifically, we reviewed IT master controls designed to mitigate risks associated with
     IT process areas that support in-scope financial applications.13

     
     
     
     
     
     
     
     
     

10
   A uniquely named control designed to mitigate risk associated with the infrastructure (for example, database,
operating system, and so forth.) supporting in-scope financial applications. Master controls are either general in
nature (for example, addressing Active Directory security parameters) or application unique (for example, tailored
specifically for the                                               .
11
   The IT SOX CMO considers these significant business applications supporting an in-scope business process.
12
   The IT SOX CMO determined that these IT systems have a comprehensive impact on the IT control environment
or are relied on by in-scope applications for coverage of controls.
13
   SOX in-scope applications include financial applications supporting in-scope business processes and IT
applications that have a pervasive impact on the IT control environment.
14
   An




                                                         6
Fiscal Year 2010 Selected Information Technology General Controls                         IT-AR-11-002



The IT SOX CMO identified      master controls to cover the IT process areas we
reviewed. See Tables 2 and 3 in Appendix D for a detailed list of master controls we
reviewed for each IT process area.

To accomplish our objective, we interviewed administrators, observed key processes
and procedures, and reviewed applicable Postal Service policies. We selected samples
of SOX in-scope applications, servers, and SOX-related notifications for detailed control
testing and analysis. We performed all system queries in a controlled environment with
management’s full knowledge and approval. We conducted our audit at the
            and           IT/ASCs and the          ITSC.

We conducted this performance audit from October 2009 through January 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management on December 3, 2010, and included their comments
where appropriate.

We assessed the reliability of computer-generated data by reviewing configuration files
obtained from the audited systems and interviewing appropriate managers who were
knowledgeable about the data. We also reviewed existing information about the data
and the operating systems/platforms that produced the data. We determined that the
data were sufficiently reliable for the purposes of this report.

PRIOR AUDIT COVERAGE
                                      Final
    Report          Report           Report
     Title          Number            Date Report                        Results
 Fiscal Year      IS-AR-10-005     3/31/2010      Overall, general computer controls were in
 2009                                             place and working effectively. However, we
 Information                                      identified issues in the following areas in four
 Systems                                          interim audit reports: semiannual building key
 General                                          surveys and reviews of identification badge
 Controls                                         access control lists; UNIX time-out sessions
 Capping                                          and unnecessary system and network
 Report                                           services; network component management
                                                  and monitoring, authentication protocols, and
                                                  data encryption transmissions; and
                                                  maintaining Windows Active Directory objects
                                                  and domain controllers not meeting security
                                                  standards. This capping report contained no
                                                  additional recommendations, as the issues




                                                   7
Fiscal Year 2010 Selected Information Technology General Controls                       IT-AR-11-002



                                                  were addressed in separate audit reports
                                                  issued to management.
 Fiscal Year      IS-AR-09-005     3/19/2009      Overall, general computer controls were in
 2008                                             place and working effectively. However, four
 Information                                      interim audit reports addressed additional
 Systems                                          controls and actions needed in the areas of
 General                                          UNIX script monitoring, groups management,
 Controls                                         audit configurations, and log monitoring;
 Capping                                          Oracle default profiles; security clearance
 Report                                           processing; periodic application risk
                                                  assessments; off-site storage of UNIX tapes;
                                                  and facility recovery plan updates. This
                                                  capping report contained no additional
                                                  recommendations, as the issues were
                                                  addressed in separate audit reports issued to
                                                  management.
 Fiscal Year      IS-AR-08-007     3/11/2008      Overall, general computer controls were in
 2007                                             place and working effectively. However, five
 Information                                      interim audit reports addressed additional
 Systems                                          controls and actions needed in the areas of
 General                                          Oracle database security settings, Windows
 Controls                                         password settings, classification of
 Capping                                          employees in sensitive positions, application
 Report                                           recovery testing, and key inventory
                                                  management. This capping report contained
                                                  no additional recommendations, as the
                                                  issues were addressed in separate audit
                                                  reports issued to management.




                                                   8
Fiscal Year 2010 Selected Information Technology General Controls                                IT-AR-11-002



                               APPENDIX B: DETAILED ANALYSIS

Oracle Database Configuration Settings

Management did not properly configure security settings on Oracle databases.
Specifically, system accounts on  of the    databases supporting four in-scope
applications still                       In addition, Oracle accounts assigned to the
                         had the                             on one database.15




Postal Service policy17 requires management to
                                                                                      to the
Postal Service network. Oracle database policy requires management to
                                             after installation. Properly configuring
                      reduces the risk of unauthorized users gaining access or making
changes to sensitive information, data or programs.

Windows Server Management

Security settings on Windows servers were not in compliance with Postal Service
policy.19 While performing our review of Windows servers, we identified non-
compliant:

      
                                                              .
      




15
     The                             database supporting the
16




   Handbook AS-805, Information Security, Sections 9-6.1.11,                           and 9-6.1.12
               February 2010.
   Security Hardening Standards Oracle Databases, Version 2.1, Section 5.8, Enable password management, dated
September 3, 2009.
19
   Handbook AS-805, Section 9-6.1.12,




                                                      9
Fiscal Year 2010 Selected Information Technology General Controls                                         IT-AR-11-002



Table 1 shows the servers                                                           setting issues. We
identified these issues across                  servers;         of the          servers had a
                                           .

                  Table 1: Password and Account Lockout Settings Issues

                                                                  Password          Account
                  Number        Server Name/Application
                                                                   Setting       Lockout Setting
                      1
                      2
                      3
                      4
                      5
                      6
                      7
                      8

System administrators create domains and use Active Directory to manage security and
objects. The Postal Service has multiple domains such as USA production,
development, secure enclaves, and demilitarized zones (DMZ).20 During our review, we
found that servers outside the       domain did not receive                , because
administrators supporting these servers were not always notified of the
Additionally, we found that servers inside the      domain did not receive
         , because of software and configuration issues such as ports that were not
open. Unless                        are properly applied, management cannot ensure
the Windows servers are adequately secured to reduce the risk of unauthorized access
to applications and data.

                                                   on    of the    servers had not been updated.
The                                        is designed primarily for initial logon and configuration
of a local computer. The
                                  to avoid the potential for a computer security breach.
Postal Service policy states
considered sensitive (for example,              system supervisors, software
specialists, system administrators, or vendor-supplied) must be changed at least every
30 days.




20
   Enclaves can be implemented to enforce separate security zones; DMZs are network segments in between
intranets, extranets, and the Internet that provide increased security for data transfer between information resources,
vendors, and the public.
21
                 is an infrastructure that allows you to implement specific configurations for users and computers.
                                                 which are linked to Active Directory service containers such as sites,
domains, or organizational units.
22
   Handbook AS-805, Section 9-6.1.12,




                                                          10
Fiscal Year 2010 Selected Information Technology General Controls                                        IT-AR-11-002



                                    APPENDIX C: OTHER IMPACTS

                                                   Data at Risk

The following presents an estimate of the potential costs the Postal Service could incur
from the disclosure of personally identifiable information. We based the other impact of
              on an estimate of           sensitive records stored in two database tables
containing sensitive data elements related to the E-Facilities Management System. The
calculation assumes each record would contain at least one element of sensitive
information.

                                                                           Costs per Customer
                          Cost Category                                Affected as Reported by the
                                                                           Ponemon Institute23
                      Detection and Escalation
       Activities that enable a company to reasonably detect
       breach of personal data either at high risk (in
       storage) or in motion; activities necessary to report
       the breach of protected information to appropriate
       personnel within a specified period.
                              Notification
       Activities that enable a company to notify data
       subjects with a letter, outbound telephone call, e-mail
       or general notice that personal information was lost
       or stolen.
                          Ex-Post Response
       Activities to help victims of a breach communicate
       with the company to ask additional questions or
       obtain recommendations to minimize potential
       harms. Redress activities also include ex-post
       responses such as a credit report monitoring or
       reissuance of a new account (or credit card).
       Total




23
  Ponemon Institute, LLC, Fifth Annual US Cost of Data Breach Study, dated January 2010.
24
  The Ponemon Institute study included a cost category for “lost business” with a cost per customer of        per
record. We have excluded this cost from our calculation, because we do not believe it is a fair representation of the
potential cost the Postal Service could incur for this category.




                                                          11
Fiscal Year 2010 Selected Information Technology General Controls                                       IT-AR-11-002



                           APPENDIX D: TEST RESULTS AND DETAILS

Table 2 shows the level of compliance for the                     Windows and Oracle SOX master
controls we tested.

                              Table 2: IT Master Controls Compliance

                                    IT Master Controls Compliance
                                               Windows                                      Oracle
Master                                                                                                  Percentage
                                 Sample        Number       Percentage       Sample         Number
Control     Master Control                                                                                  of
                                  Size         Tested/      of Servers         Size         Tested/
Number                                                                                                  Databases
                                (Servers)      Passed       Compliant      (Databases)      Passed
                                                                                                        Compliant
           Account
    1
           Suspension
           Administrative
    2      Password
           Management
           Configuration
    3
           Baseline
           Default
           Account
    4
           Password
           Change
           Separation of
    5
           Duties
           Password
    6      Parameter
           Configuration
           Password
    7
           Encryption
           Patch
    8
           Management
           Security Log
    9      Monitor
           Configuration
           Testing
   10
           Documentation




   The IT SOX CMO did not identify the Administrative Password Management master control for Windows operating
systems.
26
   We reviewed the results of a separate script for the separation of duties master control. There were      databases
in the universe when we performed our review.
27
   Based on the number of control IDs rather than number of servers.
28
   We did not test Patch Management or Testing Documentation master controls, because management
recommended not applying the current patches, which they considered not critical enough to apply across all Oracle
databases. Additionally, at the time of our testing, DBSS management had not determined an efficient process to
install patches across the scope of all the in-scope Oracle databases. Patch installation requires each of the
databases (      at the time of our testing) to be shut down.
29
   The IT SOX CMO did not identify the Security Log Monitor Configuration master control for Oracle databases.




                                                          12
Fiscal Year 2010 Selected Information Technology General Controls               IT-AR-11-002



Table 3 presents the master controls the IT SOX CMO identified for the seven
remaining IT process areas we tested. The numbers in the table summarize the
sampled number of items tested and the number of sampled items passed for each of
the master controls identified. The variation in the sample numbers is attributed to the
size of the universe, the assessed risk of the area, and consideration of whether
expanding the sample would likely conclude that an exception would be more likely.

                 Table 3: IT Process Areas and Master Controls Tested

                                             IT Process Areas Tested



                   Master
                  Controls
                 Identified
                for Testing
                Account
                Management
                Responsibility
                Account
                Suspension
                Administrative
                Password
                Management
                Configuration
                Baseline
                Default Account
                Password
                Change
                Inactivity
                Timeout
                Password
                Encryption
                Password
                Parameter
                Configuration
                Patch
                Management
                Review
                Security Logs
                Security Log
                Monitor
                Configuration
                Semi-Annual
                Account
                Review
                Separation of
                Duties
                Shared
                Manager
                Account
                Provisioning
                Testing




                                                   13
Fiscal Year 2010 Selected Information Technology General Controls      IT-AR-11-002



                                             IT Process Areas Tested



                   Master
                  Controls
                 Identified
                for Testing
                Documentation
                UDS Managed
                Account
                Suspension
                UDS Managed
                Password
                Parameter
                UDS Managed
                Password
                Encryption
                Network
                Connection
                Authorization
                Firewall
                Management
                Network
                Archive
                Documentation
                Virtual Private
                Network
                Access
                Management




                                                   14
Fiscal Year 2010 Selected Information Technology General Controls   IT-AR-11-002



                        APPENDIX E: MANAGEMENT’S COMMENTS




                                                   15
Fiscal Year 2010 Selected Information Technology General Controls   IT-AR-11-002




                                                   16
Fiscal Year 2010 Selected Information Technology General Controls   IT-AR-11-002




                                                   17
